Department of Homeland Security
   Ofﬁce of Inspector General
 Information Technology Management Letter
      for the United States Coast Guard
   Component of the FY 2008 DHS Financial
               Statement Audit

                                           (Redacted)





 Notice: The Department of Homeland Security, Office of Inspector General has redacted the report for public
 release. A review under the Freedom of Information Act will be conducted upon request.




OIG-09-47                                                                                      March 2009
                                                                        Office of Inspector General

                                                                        U.S. Department of
                                                                        Homeland Security
                                                                        Washington, DC 20528




                                   March 27, 2009

                                      Preface

The Department of Homeland Security (DHS) Office of Inspector General (OIG) was
established by the Homeland Security Act of 2002 (Public Law 107-296) by amendment to
the Inspector General Act of 1978. This is one of a series of audit, inspection, and special
reports prepared as part of our oversight responsibilities to promote economy, efficiency, and
effectiveness within the department.

This report presents the information technology (IT) management letter for the United States
Coast Guard (CG) component of the FY 2008 DHS financial statement audit as of September
30, 2008. It contains observations and recommendations related to information technology
internal control that were not required to be reported in the financial statement audit report
(OIG-09-09, November 2008) and represents the separate restricted distribution report
mentioned in that report. The independent accounting firm KPMG LLP (KPMG) performed
the audit of CG’s FY 2008 financial statements and prepared this IT management letter.
KPMG is responsible for the attached IT management letter dated December 5, 2008, and the
conclusions expressed in it. We do not express opinions on DHS’ financial statements or
internal control or make conclusion on compliance with laws and regulations.

The recommendations herein have been developed to the best knowledge available to our
office, and have been discussed in draft with those responsible for implementation. We trust
this report will result in more effective, efficient, and economical operations. We express our
appreciation to all of those who contributed to the preparation of this report.




                                      Richard L. Skinner 

                                      Inspector General 

                                KPMG LLP
                                2001 M Street, NW
                                Washington, DC 20036



December 5, 2008

Inspector General
U.S. Department of Homeland Security

Chief Information Officer
U.S. Coast Guard

Chief Financial Officer
U.S. Coast Guard

Ladies and Gentlemen:

We were engaged to audit the accompanying consolidated balance sheet of the U.S. Department of
Homeland Security (DHS) as of September 30, 2008, and the related statement of custodial activity for
the year then ended (referred to herein as “financial statements”). We were not engaged to audit the
statements of net cost, changes in net position, and budgetary resources for the year ending September 30,
2008 (referred to herein as “other financial statements”). Because of matters discussed in our Independent
Auditors’ Report, dated November 14, 2008, the scope of our work was not sufficient to enable us to
express, and we did not express, an opinion on the financial statements.
In connection with our fiscal year (FY) 2008 engagement, we considered Coast Guard’s internal control
over financial reporting by obtaining an understanding of Coast Guard’s internal control, determining
whether internal controls had been placed in operation, assessing control risk, and performing tests of
controls in order to determine our procedures. We limited our internal control testing to those controls
necessary to achieve the objectives described in Government Auditing Standards and Office of
Management and Budget (OMB) Bulletin No. 07-04, Audit Requirements for Federal Financial
Statements. We did not test all internal controls relevant to operating objectives as broadly defined by
the Federal Managers’ Financial Integrity Act of 1982 (FMFIA). The objective of our engagement was
not to provide an opinion on the effectiveness of DHS’ internal control over financial reporting.
Accordingly, we do not express an opinion on the effectiveness of DHS’ internal control over financial
reporting. Further, other matters involving internal control over financial reporting may have been
identified and reported had we been able to perform all procedures necessary to express an opinion on
the DHS balance sheet as of September 30, 2008, and the related statement of custodial activity for the
year then ended, and had we been engaged to audit the other FY 2008 financial statements.
A control deficiency exists when the design or operation of a control does not allow management or
employees, in the normal course of performing their assigned functions, to prevent or detect
misstatements on a timely basis. A significant deficiency is a control deficiency, or combination of
control deficiencies, that adversely affects DHS’ ability to initiate, authorize, record, process, or report
financial data reliably in accordance with U.S. generally accepted accounting principles such that there is
more than a remote likelihood that a misstatement of DHS’ financial statements that is more than
inconsequential will not be prevented or detected by DHS’ internal control over financial reporting. A
material weakness is a significant deficiency, or combination of significant deficiencies, that results in
more than a remote likelihood that a material misstatement of the financial statements will not be
prevented or detected by the entity’s internal control.
During our audit engagement, we noted certain matters in the area of application software development
and change control with respect to Coast Guard’s financial systems Information Technology (IT) general



                                    KPMG LLP, a U.S. limited liability partnership, is the U.S.
                                    member firm of KPMG International, a Swiss cooperative.
controls which we believe contribute to a DHS-level significant deficiency that is considered a material
weakness in IT general and application controls. These matters are described in the IT General Control
Findings by Audit Area section of this letter.
The material weakness described above is presented in our Independent Auditors’ Report, dated
November 14, 2008. This letter represents the separate restricted distribution report mentioned in that
report.
Although not considered to be material weaknesses, we also noted certain other matters during our audit
engagement which we would like to bring to your attention. These matters are also described in the IT
General Control Findings by Audit Area section of this letter.
The material weakness and other comments described herein have been discussed with the appropriate
members of management, or communicated through a Notice of Finding and Recommendation (NFR),
and is intended For Official Use Only. We aim to use our knowledge of DHS’ organization gained
during our audit engagement to make comments and suggestions that we hope will be useful to you. We
have not considered internal control since the date of our Independent Auditors’ Report.
The Table of Contents on the next page identifies each section of the letter. In addition, we have
provided: a description of key Coast Guard financial systems and information technology infrastructure
within the scope of the FY 2008 DHS financial statement audit in Appendix A; a description of each
internal control finding in Appendix B; and the current status of the prior year NFRs in Appendix C. Our
comments related to financial management and reporting internal controls have been presented in a
separate letter to the Office of Inspector General and the DHS Chief Financial Officer dated December 5,
2008.

This report is intended solely for the information and use of DHS management, DHS Office of Inspector
General, OMB, U.S. Government Accountability Office, and the U.S. Congress, and is not intended to be
and should not be used by anyone other than these specified parties.


Very truly yours,
                             Department of Homeland Security

                                United States Coast Guard 

                         Information Technology Management Letter
                                    September 30, 2008

                 INFORMATION TECHNOLOGY MANAGEMENT LETTER 


                                     TABLE OF CONTENTS 

                                                                                              Page


Objective, Scope and Approach                                                                  1


Summary of Findings and Recommendations                                                        2


Information Technology General Control Findings by Audit Area                                  3


 Findings Contributing to a Material Weakness in IT General Controls                           3


   Application Software Development and Change Controls                                        3


 Other Findings in IT General Controls                                                         4


   Access Controls                                                                             4


   Entity-Wide Security Program Planning and Management                                        4


   Service Continuity                                                                          5


Application Control Findings                                                                   7


Management Comments and OIG Response                                                           7

                                         APPENDICES


    Appendix                                        	Subject                                  Page


                     Description of Key Coast Guard Financial Systems and IT Infrastructure
        A	                                                                                     8
                     within the Scope of the FY 2008 DHS Financial Statement Audit



        B            FY 2008 Notices of IT Findings and Recommendations at Coast Guard         11




                     Status of Prior Year Notices of Findings and Recommendations and
        C	           Comparison to Current Year Notices of Findings and Recommendations        25

                     at Coast Guard 




        D	           Management Comments                                                       35

                                 Department of Homeland Security

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2008

                         OBJECTIVE, SCOPE AND APPROACH

We were engaged to perform an audit of Department of Homeland Security (DHS) Information
Technology (IT) general controls in support of the fiscal year (FY) 2008 DHS balance sheet and
statement of custodial activity audit engagement. The overall objective of our engagement was to
evaluate the effectiveness of IT general controls of DHS’ financial processing environment and related IT
infrastructure as necessary to support the engagement. The Federal Information System Controls Audit
Manual (FISCAM), issued by the Government Accountability Office (GAO), formed the basis of our
audit. The scope of the Coast Guard IT general controls assessment is described in Appendix A.

FISCAM was designed to inform financial auditors about IT controls and related audit concerns to assist
them in planning their audit work and to integrate the work of auditors with other aspects of the financial
audit. FISCAM also provides guidance to IT auditors when considering the scope and extent of review
that generally should be performed when evaluating general controls and the IT environment of a federal
agency. FISCAM defines the following six control functions to be essential to the effective operation of
the general IT controls environment.

�	 Entity-wide security program planning and management (EWS) – Controls that provide a framework
   and continuing cycle of activity for managing risk, developing security policies, assigning
   responsibilities, and monitoring the adequacy of computer-related security controls.
�	 Access control (AC) – Controls that limit and/or monitor access to computer resources (data,
   programs, equipment, and facilities) to protect against unauthorized modification, loss, and disclosure.
�	 Application software development and change control (ASDCC) – Controls that help to prevent the
   implementation of unauthorized programs or modifications to existing programs.
�	 System software controls (SS) – Controls that limit and monitor access to powerful programs that
   operate computer hardware and secure applications supported by the system.
�	 Segregation of duties (SD) – Controls that constitute policies, procedures, and an organizational
   structure to prevent one individual from controlling key aspects of computer-related operations, thus
   deterring unauthorized actions or access to assets or records.
�	 Service continuity (SC) – Controls that involve procedures for continuing critical operations without
   interruption, or with prompt resumption, when unexpected events occur.

To complement our general IT controls audit, we also performed technical security testing for key
network and system devices. The technical security testing was performed from within a select Coast
Guard facility, and focused on test, development, and production devices that directly support Coast
Guard’s financial processing and key general support systems.

Application controls were not tested for the year ending September 30, 2008 due to the nature of prior-
year audit findings.




                                                     1
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                 Department of Homeland Security

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2008

             SUMMARY OF FINDINGS AND RECOMMENDATIONS
During fiscal year (FY) 2008, Coast Guard took corrective action to address nearly half of their prior year
IT control weaknesses. For example, Coast Guard made improvements by implementing emergency
response training for all Coast Guard                             personnel with data center access,
verifying that all Coast Guard                                  personnel have completed exit forms upon
separation, and testing disaster recovery procedures. However, during FY 2008, we continued to identify
IT general control weaknesses at Coast Guard. The most significant weaknesses from a financial
statement audit perspective related to the development, implementation, and tracking of scripts at
         , and the design and implementation of configuration management policies and procedures at
            These IT control weaknesses limited Coast Guard’s ability to ensure that critical financial and
operational data were maintained in such a manner to ensure confidentiality, integrity, and availability. In
addition, these weaknesses negatively impacted the internal controls over Coast Guard financial reporting
and its operation and we consider them to collectively represent a material weakness for Coast Guard
under standards established by the American Institute of Certified Public Accountants (AICPA). In
addition, based upon the results of our test work we noted that the Coast Guard did not fully comply with
the requirements of Federal Financial Management Improvement Act (FFMIA).
Of the 22 findings identified during our FY 2008 testing, 21 were repeat findings, either partially or in
whole from the prior year, and 1 was a new IT finding. These findings represent weakness in four of the
six FISCAM key control areas. The FISCAM areas impacted included Application Software
Development and Change Controls, Access Controls, Service Continuity, and Entity-Wide Security
Program Planning and Management. The majority of the findings were inherited from the lack of
properly designed, detailed, and consistent guidance over financial system controls to enforce DHS
Sensitive System Policy Directive 4300A requirements and National Institute of Standards and
Technology (NIST) guidance. Specifically, the findings stem from 1) unverified access controls through
the lack of user access privilege re-certifications, 2) entity-wide security program issues involving civilian
and contractor background investigation weaknesses, 3) inadequately designed and operating change
control policies and procedures, 4) patch and configuration management weaknesses within the system,
and 5) the lack of updated disaster recovery plans which reflect the current environment identified
through testing. These weaknesses may increase the risk that the confidentiality, integrity, and
availability of system controls and Coast Guard financial data could be exploited thereby compromising
the integrity of financial data used by management and reported in the DHS financial statements.
While the recommendations made by KPMG should be considered by Coast Guard, it is the ultimate
responsibility of Coast Guard management to determine the most appropriate method(s) for addressing
the weaknesses identified based on their system capabilities and available resources.




                                                      2
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                Department of Homeland Security

                                   United States Coast Guard 

                            Information Technology Management Letter
                                       September 30, 2008

             IT GENERAL CONTROL FINDINGS BY AUDIT AREA
Findings Contributing to a Material Weakness in IT General Controls

Conditions: In FY 2008, the following IT and financial system control weaknesses were identified at the
Coast Guard and contribute to a DHS-level significant deficiency that is considered a material weakness
in IT general and application controls.
Application software development and change controls – we noted:
    �	 For the data scripts run at Coast Guard’s                , procedures over approval, testing, and
       documentation requirements remain in draft form. The                            does not
       consistently include all testing, approval, and implementation documentation for all scripts. In
       addition, Coast Guard does not monitor scripts run in the database through audit logging and has
       not developed a technical solution to monitor who accesses the database through
       to run scripts or review what scripts are run.
    �	 Coast Guard conducted an examination of the data scripts run with an external, independent
       organization; however, due to the many limitations over scope, the analysis was incomplete.
       Furthermore, the analysis did not properly evaluate scripts as to financial statement impact,
       including current versus prior year effect.
    �	 Coast Guard lacks a formal process to distinguish between the module lead approvers for script
       approval requests.
    �	 Procedures over software changes for the key financial applications during the development and
       testing processes include multiple weaknesses.


Recommendations: We recommend that the Coast Guard Chief Information Officer and Chief Financial
Officer, in coordination with the DHS Office of Chief Financial Officer and the DHS Office of the Chief
Information Officer, make the following improvements to Coast Guard’s financial management systems
and associated information technology security program:
    �	 Implement and document in detail, a single, integrated script change control process that includes
       clear lines of authority to Coast Guard financial and IT management personnel, enforced
       responsibilities of all participants in the process, and documentation requirements.
    �	 Continue efforts to complete an in-depth analysis of active scripts, with the following objectives:
       All changes to active scripts and new scripts should be subject to an appropriate software change
       control process, to include testing, reviews, and approvals, and should be reviewed for impact on
       financial statement balances.
    �	 Develop and implement change control policies and procedures to verify that all software changes
       are approved, tested, documented, tracked, and reviewed prior to deploying the changes into the
       production environment in accordance with DHS Sensitive System Policy Directive 4300A.




                                                    3
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                 Department of Homeland Security

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2008


Other Findings in IT General Controls


Although not considered to be a material weakness, we also noted the following other matters related to
IT and financial system control deficiencies during the FY08 audit engagement:
1.	 Access controls – we noted:
    �	 Procedures surrounding the system used to track contracted personnel data have not been 

       formally documented. 

    �	 Procedures over the process of finalizing and implementing entity-wide processes for account
       terminations and related notifications are still in draft and have not been implemented or
       communicated.
    �	 Security configuration management weaknesses exist on hosts supporting the key financial
       applications and the underlying general support systems.
    �	 Security patch management weaknesses exist on hosts supporting the key financial applications
       and general support systems.
    �	 Policies and procedures have not been developed and implemented for the manual periodic
       review of audit logs for key financial systems.
    �	 Access review procedures for key financial applications do not include the review of all user
       accounts to ensure that all terminated individuals no longer have active accounts, that inactive
       accounts are locked, and that privileges associated with each individual are still authorized and
       necessary.
    �	 Access control weaknesses identified during our IT testing also contributed to numerous instances
       where access to data could lead to various incompatible function issues.
    �	 Access request forms are not being completed for all financial system users on a consistent basis.


2.	 Entity-wide security program planning and management – we noted:
    �	 Security configuration requirements were not implemented into contract language of a support
       contractor.
    �	 Policies or procedures have not been implemented to require that a favorably adjudicated 

       background investigation be completed for all contractor personnel.

    �	 Background investigations for all civilian employees have not been completed and civilian
       position sensitivity designations have not been determined in accordance with DHS guidance.
    �	 A risk assessment for a major financial application has not been completed and the associated
       System Security Plan remains in draft form.




                                                     4
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                 Department of Homeland Security

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2008




3. Service continuity – we noted:
    �	 The            Continuity of Operations (COOP) Plan has not been updated to reflect the results of
       testing and the division Business Continuity Plans have not been finalized.


Recommendations: We recommend that the Coast Guard Chief Information Officer and Chief Financial
Officer, in coordination with the DHS Office of Chief Financial Officer and the DHS Office of the Chief
Information Officer, make the following improvements to Coast Guard’s financial management systems
and associated information technology security program.


For access controls:
    �	 Develop procedures for the periodic review of the manual audit logs. In addition, ensure audit
       log files are configured, retained, and archived in compliance with DHS policy.
    �	 Develop and implement procedures to require a periodic review by supervisors of all financial
       application and database user accounts and their associated privileges. These procedures should
       include steps to verify that all terminated individuals no longer have active accounts, that inactive
       accounts are locked and that privileges associated with each individual are still authorized and
       necessary.
    �	 Finalize the procedural documentation over contractor tracking and communicate/distribute the
       procedures. In addition, continuously monitor controls over the contractor tracking system to
       verify that contractor data within the system remains current and accurate.
    �	 Actively monitor the use of and changes related to operating systems and other sensitive utility
       software and hardware. Additionally, perform corrective actions on the specific patch and
       configuration weaknesses identified.
    �	 Implement an automated process/system that will notify system owners of terminated contractor,
       military, and civilian personnel.
    �	 Finalize and implement entity management policies and procedures for verifying that terminated
       user accounts have been successfully removed.
    �	 Develop and implement procedures to require an annual review of all financial application and
       database user account privileges to verify that privileges remain up to date and proper segregation
       of duties exists.
    �	 Update procedures to ensure that a documented and approved access authorization request is
       completed for each individual prior to granting him/her access to the key financial applications or
       databases.




                                                     5
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                 Department of Homeland Security

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2008

For entity-wide security program planning and management:
    �	 Create and implement contractor background investigation policies and procedures in order to
       establish requirements and ensure compliance with DHS Sensitive System Policy Directive
       4300A. This includes the verification that all contracts issued by the Coast Guard include the
       appropriate Coast Guard position sensitivity designation requirements for contracted personnel.
    �	 Perform initial background investigations and re-investigations for civilian employees in
       accordance with position sensitivity designations at no less than the Moderate level as required by
       DHS directives. In addition, conduct civilian background re-investigations every ten (10) years,
       as required by DHS directives, to ensure that each employee has a favorably adjudicated and valid
       Minimum Background Investigation.
    �	 Finalize and implement the certification and accreditation C&A package for the key financial
       systems in accordance with DHS and NIST guidance.

For service continuity:

    �	 Update the COOP to include the results of its testing and finalize the applicable supporting
       business continuity plans.



Cause/Effect: Many of these weaknesses were inherited from a system implementation in 2003 that did
not properly take into account all of the key Coast Guard business and functional processes, operational
support procedures, and IT security requirements; policies and procedures that were outdated, lacking,
or contradictory; and a lack of consistent and proper monitoring and enforcement by Coast Guard
management of the IT policies and procedures that are in place.

Reasonable assurance should be provided that financial system user access levels are limited and
monitored for appropriateness and that all user accounts belong to current employees. The weaknesses
identified within Coast Guard’s access controls increase the risk that employees and contractors may have
access to a system that is outside the realm of their job responsibilities or that a separated individual, or
another person with knowledge of an active account of a terminated employee, could use the account to
alter the data contained within the application or database. This may also increase the risk that the
confidentiality, integrity, and availability of system controls and the financial data could be exploited
thereby compromising the integrity of financial data used by management and reported in the DHS
financial statements.

Furthermore, the lack of documented security configuration management controls may result in security
responsibilities communicated to system developers improperly as well as the improper implementation
and monitoring of system changes. This also increases the risk of unsubstantiated changes as well as
changes that may introduce errors or data integrity issues that are not easily traceable back to the changes.
In addition, it increases the risk of undocumented and unauthorized changes to critical or sensitive
information and systems. This may reduce the reliability of information produced by these systems.




                                                      6
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                 Department of Homeland Security

                                    United States Coast Guard 

                             Information Technology Management Letter
                                        September 30, 2008

Criteria: The Federal Information Security Management Act (FISMA) passed as part of the Electronic
Government Act of 2002, mandates that Federal entities maintain IT security programs in accordance with
OMB and NIST guidance. OMB Circular No. A-130, Management of Federal Information Resources,
and various NIST guidelines describe specific essential criteria for maintaining effective general IT
controls. In addition, OMB Circular No. A-127 prescribes policies and standards for executive
departments and agencies to follow in developing, operating, evaluating, and reporting on financial
management systems. FFMIA sets forth legislation prescribing policies and standards for executive
departments and agencies to follow in developing, operating, evaluating, and reporting on financial
management systems. The purpose of FFMIA is: (1) to provide for consistency of accounting by an
agency from one fiscal year to the next, and uniform accounting standards throughout the Federal
Government; (2) require Federal financial management systems to support full disclosure of Federal
financial data, including the full costs of Federal programs and activities; (3) increase the accountability
and credibility of federal financial management; (4) improve performance, productivity and efficiency of
Federal Government financial management; and (5) establish financial management systems to support
controlling the cost of Federal Government. In closing, for this year’s IT audit we assessed the DHS
component’s compliance with DHS Sensitive System Policy Directive 4300A.



                         APPLICATION CONTROL FINDINGS


Application controls were not tested for the year ending September 30, 2008 due to the nature of the
prior-year audit findings.


               MANAGEMENT COMMENTS AND OIG RESPONSE

We obtained written comments on a draft of this report from the Coast Guard management. Generally,
the Coast Guard agreed with all of our findings and recommendations. The Coast Guard has developed a
remediation plan to address these findings and recommendations. We have incorporated these comments
where appropriate and included a copy of the comments at Appendix D.

OIG Response


We agree with the steps that Coast Guard management is taking to satisfy these
recommendations.




                                                     7
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                                                             Appendix A

                           Department of Homeland Security

                              United States Coast Guard

                       Information Technology Management Letter
                                  September 30, 2008




                                    Appendix A 


     Description of Key Coast Guard Financial Systems and IT 

   Infrastructure within the Scope of the FY 2008 DHS Financial 

                          Statement Audit 





                                            8
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                                                                             Appendix A

                                Department of Homeland Security

                                   United States Coast Guard

                            Information Technology Management Letter
                                       September 30, 2008


   Below is a description of significant Coast Guard financial management systems and supporting
   Information Technology (IT) infrastructure included in the scope of the engagement to perform the
   financial statement audit.

   Locations of Audit: Coast Guard                                     ; the Coast Guard
                                       ; the                                  in 

             ; and the 
                       (     ) in                .


   Key Systems Subject to Audit:
   �                                                            that is the principal general ledger for
       recording financial transactions for the Coast Guard.      is hosted at            the Coast
       Guard’s primary data center. It is a customized version of         Financials.
   �                                            Used to create and post obligations to the
                         . It allows users to enter funding, create purchase requests, issue procurement
       documents, perform system administration responsibilities, and reconcile weekly program
       element status reports.      is interconnected with the       system and is hosted at         .
   �                                              Document image processing system, which is
       integrated with an                      relational database.        allows electronic data and
       scanned paper documents to be imaged and processed for data verification, reconciliation and
       payment.         utilizes         software to scan documents and to view the images of
       scanned documents and to render images of electronic data received. This system is hosted at

   �              A commercial product used to reconcile payment information retrieved from the
       United States Department of the Treasury. It reconciles transaction items that Treasury has
       processed to transaction items Coast Guard has sent to Treasury. This system is hosted at
               .
   �                                                                                          Database
       maintained at         . Information from       is uploaded to this instance monthly with other
       Coast Guard general ledger balances. After reconciliation and adjustment, balancing information
       is uploaded into           .
   �                                                                application, hosted at     , used for
       paying Coast Guard active and reserve personnel payroll.
   �                                                        Formerly named the
                            ,         is hosted at              is the primary financial application for
       the                                           the             , and the Coast Guard            .




                                                     9
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                                                                        Appendix A

                               Department of Homeland Security

                                  United States Coast Guard

                           Information Technology Management Letter
                                      September 30, 2008

   �                                Web-based application, hosted at       designed to automate the
       management of Coast Guard’s vessel logistics by supporting the following functions:
       configuration, maintenance, supply and finance.




                                                 10
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                                                                 Appendix B

                            Department of Homeland Security

                               United States Coast Guard

                        Information Technology Management Letter
                                   September 30, 2008




                                     Appendix B 


FY2008 Notices of IT Findings and Recommendations – Coast Guard





                                           11
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                               Financial Statement Audit 

                                                                                                     Appendix B

                                     Department of Homeland Security

                                        United States Coast Guard

                                 Information Technology Management Letter
                                            September 30, 2008


Notice of Findings and Recommendations – Definition of Risk Ratings**:

The Notices of Findings and Recommendations (NFR) were risk ranked as High, Medium, and Low** based
upon the potential impact that each weakness could have on Coast Guard’s information technology (IT) general
control environment and the integrity of the financial data residing on Coast Guard’s financial systems, and the
pervasiveness of the weakness.

** The risk ratings are intended only to assist management in prioritizing corrective actions, considering
the potential benefit of the corrective action to strengthen the IT general control environment and/or the integrity
of the DHS consolidated financial statements. The risk ratings, used in this context, are not defined by
Government Auditing Standards, issued by the Comptroller General of the United States, or the American
Institute of Certified Public Accountants (AICPA) Professional Standards, and do not necessarily correlate to a
significant deficiency, as defined by the AICPA Standards and reported in our Independent Auditors’ Report on
the consolidated balance sheet of DHS as of September 30, 2008, dated November 14, 2008.

Correction of some higher risk findings may help mitigate the severity of lower risk findings, and possibly
function as a compensating control. In addition, analysis was conducted collectively on all NFRs to assess
connections between individual NFRs, which when joined together could lead to a control weakness occurring
with more likelihood and/or higher impact potential.

High Risk**: A control weakness that is more serious in nature affecting a broader range of financial IT
systems, or having a more significant impact on the IT general control environment and /or the integrity of the
financial statements as a whole.

Medium Risk**: A control weakness that is less severe in nature, but in conjunction with other IT general
control weaknesses identified, may have a significant impact on the IT general control environment and / or the
integrity of the financial statements as a whole.

Low Risk**: A control weakness minimal in impact to the IT general control environment and / or the integrity
of the financial statements.




                                                        12
   Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                  Financial Statement Audit 

                                                                                 Appendix B

                            Department of Homeland Security

                               United States Coast Guard

                        Information Technology Management Letter
                                   September 30, 2008




                       United States Coast Guard 

                    FY2008 Information Technology 

        Notification of Findings and Recommendations – Detail 





                                           13
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                               Financial Statement Audit 

                                                                                                                                       Appendix B

                                                  Department of Homeland Security

                                                     United States Coast Guard

                                              Information Technology Management Letter
                                                         September 30, 2008

                                                Department of Homeland Security

                                                    United States Coast Guard 

                                                 FY2008 Information Technology 

                                     Notification of Findings and Recommendations – Detail 


                                                                                                                               New     Repeat    Risk
NFR #                             Condition                                                Recommendation
                                                                                                                               Issue    Issue   Rating*
CG-IT­   The                                           ) Continuity of     Update the COOP as the result of its testing and               X      Low
08-01    Operations Plan (COOP) has not been updated to reflect the        finalize the applicable supporting Business
         results of testing the COOP, and the Business Continuity          Continuity Plans.
         Plans for each division have not been finalized.
CG-IT­   During the first half of the fiscal year the contract with the    �   Enhance existing Configuration                            X       High
08-06                                                                          Management/Change Management policies
                         software vendor was still in place, and no            and procedures to explicitly address security
         corrective action had taken place related to the prior year           configurations and software patches (e.g.,
         recommendation. Therefore, the risk exists that the                   those associated with system/application
         condition was present for the majority of the fiscal year             “builds”, service packs, and maintenance
         (October 1, 2007 through April 1, 2008). However, due to              releases) to better ensure compliance with
         the Coast Guard decision to terminate the contract with               DHS requirements and NIST guidance.
         their software vendor and the Coast Guard                         �   Communicate with and educate affected
         decision to suspend all Software Problem Reports (SPRs)               staff regarding these improved policies and
         and Software Change Requests (SCRs), the condition did                procedures.
         not exist beyond the date of these 2 events.
                                                                           �   Develop, communicate, and implement
                                                                               procedures to periodically review system
                                                                               changes and system baselines.
CG-IT­   We determined that Coast Guard’s                                  �   Continue with the plans to upgrade the                    X          Low
08-07                  has not implemented the following password
         requirements:                                                         operating system in order to enforce password
            � Passwords shall contain special characters                       complexity requirements to meet DHS
            � Passwords shall not contain any dictionary word                  Sensitive System Policy Directive 4300A.
            � Passwords shall not contain any proper noun or the           �   Continue to implement mitigating controls to



                                                                          14
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                           Appendix B

                                                  Department of Homeland Security

                                                     United States Coast Guard

                                              Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                   New     Repeat    Risk
NFR #                             Condition                                                 Recommendation
                                                                                                                                   Issue    Issue   Rating*
              name of any person, pet, child, or fictional character            reduce the risk of unauthorized individuals
           � Passwords shall not contain any employee serial                    gaining access to the system.

             number, Social Security number, birth date, phone 
            �   Educate all employees and contractors of DHS 

             number, or any information that could be readily 
                 Sensitive System Policy Directive 4300A 

             guessed about the creator of the password 
                        password requirements so they can set their
           � Passwords shall not contain any simple pattern of                  passwords in accordance with policy despite 

             letters or numbers, such as “qwerty” or “xyz123”
                  the systems inability to enforce them.
           � Passwords shall not be any word, noun, or name

             spelled backwards or appended with a single digit or 

             with a two-digit “year” string, such as 98xyz123

           � Passwords shall not be the same as the User ID

         While compensating controls were implemented to reduce 

         the risk of unauthorized access, they unto themselves do not 

         remove the potential risk from occurring. 

CG-IT-   Coast Guard                 has developed but not yet              Create and implement contractor background                       X       High
08-10    implemented policies and procedures to require that a              investigation policies and procedures in order to 

         favorably adjudicated background investigation be 
                establish requirements and ensure compliance with 

         completed for all contractor personnel. 
                          DHS Sensitive System Policy Directive 4300A.
                                                                            This includes the verification that all contracts
                                                                            issued by the Coast Guard include the appropriate
                                                                            Coast Guard position sensitivity designation
                                                                            requirements for contracted personnel.
CG-IT-   Coast Guard                 has not finalized the Role-Based       � Continue efforts to finalize and implement the                 X      Medium
08-14    Training for Coast Guard Information Assurance                         Role-Based Training for Coast Guard 

         Professionals Commandant Instruction, which will require 
             Information Assurance Professionals 

         all Coast Guard members, employees, and contractors with 
             Commandant Instruction which would require 

         significant IT security responsibilities to receive initial 
          personnel with significant information security

         specialized training and annual refresher training thereafter.
        responsibilities to complete specialized role-

         The online Training Management Tool, which will track 
                based training on an annual basis. 

         compliance, will not be implemented until the Role-Based 



                                                                           15
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B

                                                  Department of Homeland Security

                                                     United States Coast Guard

                                              Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                  New     Repeat    Risk
NFR #                             Condition                                                Recommendation
                                                                                                                                  Issue    Issue   Rating*
         Training is implemented.                                          �   Develop and deploy this specialized role-
                                                                               based training throughout the Coast Guard.
                                                                           �   Implement the use of the Training
                                                                               Management Tool in order to track and verify
                                                                               specialized role-based training requirements
                                                                               compliance.
CG-IT­   Until August 2008, configuration management weaknesses            Through our test work, we determined that   X the                           Low
08-15    continue to exist on hosts supporting the Naval Electronics       prior year control weakness has been remediated
                                                                           prior to the fiscal year-end; therefore, no
                                                                           recommendation is required.


CG-IT­   Although            has made significant progress in              Continue to use the currently implemented   X                               Low
08-17    remediation, we were unable to verify that             is         mitigating controls for those DHS password
         consistently remediating the vulnerabilities identified by the    requirements that cannot be enforced by the
                        scans in order to make it an effective             system. Specifically,             should continue to
         mitigating control for the           application.                 routinely use the                 scanner and
                                                                           remediate any identified password weakness
                                                                           vulnerabilities.
CG-IT­   Until August 15, 2008, when corrective actions were               Through our test work, we determined that   X the                       Medium
08-22    successfully implemented, password rules had not been             prior year control weaknesses was remediated
         appropriately configured for the                                  prior to the fiscal year-end, therefore, no
                 database. We noted that:                                  recommendation is required for this NFR.
            �       does not require passwords to be a minimum of
              eight characters;
            �       does not require a combination of alphabetic,
              numeric, and special characters;
            �       does not restrict dictionary words;
            �       does not restrict simple pattern passwords;
            �       does not restrict dictionary words spelled


                                                                          16
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                            Appendix B

                                                      Department of Homeland Security

                                                         United States Coast Guard

                                                  Information Technology Management Letter
                                                             September 30, 2008

                                                                                                                                    New     Repeat    Risk
NFR #                                 Condition                                              Recommendation
                                                                                                                                    Issue    Issue   Rating*
                 backwards;
             �        does not restrict the use of proper names; and
             �        does not restrict the use of the employee’s user
                 ID

CG-IT­   Policies and procedures have not been developed and                 �   Develop procedures for the periodic review of                X      Medium
08-23    implemented for the manual periodic review of         audit             the manual      audit logs in accordance with
         logs. As a result,     audit logs are not periodically                  DHS policy.
         reviewed.
                                                                             �   Ensure that an entity independent of the
                                                                                 personnel administering the        application
                                                                                 reviews system audit trails on a regular basis
                                                                                 as part of a more comprehensive continuous
                                                                                 monitoring program.
                                                                             �   Ensure audit log files are configured, retained,
                                                                                 and archived in compliance with DHS policy.
CG-IT­   We determined the following weaknesses associated with              �   Develop and implement procedures to   X require                     Medium
08-25                                                                            a periodic review of all        accounts and
         the                                                   change            their associated privileges. These procedures
                                                                                 should include steps to verify that all
         controls:                                                               terminated individuals no longer have active
                                                                                 accounts, that inactive accounts are locked and
                                                                                 that privileges associated with each individual
         �       Procedures have been created and implemented for the
                                                                                 are still authorized and necessary.
                 quarterly review of developer and analyst roles.
                 However, the procedures do not include the review of        �   Continue to reduce the number of tables that
                 all other        user accounts to ensure that all               can be updated to ensure that each user has a
                 terminated individuals no longer have active accounts,          business need to update each table.
                 that inactive accounts are locked, and that privileges
                 associated with each individual are still authorized and    �   Document a mapping between the
                                                                                 flow roles and the associated database tables


                                                                            17
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                             Appendix B

                                                      Department of Homeland Security

                                                         United States Coast Guard

                                                  Information Technology Management Letter
                                                             September 30, 2008

                                                                                                                                     New     Repeat    Risk
NFR #                                 Condition                                                Recommendation
                                                                                                                                     Issue    Issue   Rating*
                 necessary.                                                        that are affected.
         �       529 users have unlocked           database accounts with      �   Continue with plans to complete the
                 access to the                        . Therefore, the                   database upgrade and configure the
                 number of users with the                      role has                  password requirements to be in
                 increased by 141 users from the 388 users noted during            compliance with DHS guidance.
                 FY 2007. Additionally, a mapping of            flow roles
                 within the         application to the tables that can be
                 updated within the          database has not been
                 created. Therefore, we are unable to perform an
                 analysis of the       flow roles and the associated tables
                 that are affected to determine whether access is
                 appropriately restricted.
         �   The password configurations for the                  and
                                  profiles will not be updated to be in
             compliance with DHS guidance until after the
                                         database upgrade. Since no
             improvements have been made in regards to the
             password configuration, we determined that the
             password configurations continue to not meet the
             following DHS requirement of having a user password
             contain at least one special character.
CG-IT­   We noted that Coast Guard was unable to provide sufficient            �   Establish and enforce procedures to ensure                  X      Medium
08-27    evidence of the following:                                                      access request forms are documented,
                                                                                   approved, and provided to
             -       access request forms are documented and                                     prior to establishing        user
               approved;                                                           account.
             -       user accounts are revalidated annually; and
             -       access is revoked in a timely manner for                  �   Continue to develop and implement policy and
               employees or contractors that have left Coast Guard or              procedures for re-validating       user
               are reassigned to other duties.                                     accounts in order to meet the requirements of


                                                                              18
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                        Appendix B

                                                 Department of Homeland Security

                                                    United States Coast Guard

                                             Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                                New     Repeat    Risk
NFR #                            Condition                                              Recommendation
                                                                                                                                Issue    Issue   Rating*
                                                                            DHS Sensitive System Policy Directive
                                                                            4300A.
                                                                        �   Establish and enforce procedures to ensure
                                                                                  access is revoked for employees or
                                                                            contractors who leave the Coast Guard or are
                                                                            reassigned to other duties in order to meet the
                                                                            requirements of DHS Sensitive System Policy
                                                                            Directive 4300A.

CG-IT­   Coast Guard’s controls over the scripting process remain       In order for management to assert to any financial                X       High
08-31    ineffective. Weaknesses were noted in controls over script     statement line items, Coast Guard should:
         implementation, approvals and testing, as well as active       � Continue to design, document, implement, and
         script modification. In addition, Coast Guard has not               demonstrate the effectiveness of internal
         maintained or developed a population of scripts run since           controls associated with the active (current
         the inception of       in 2003 nor has it performed a               and future) scripts.
         historical analysis of script impact on the cumulative
         balances in permanent accounts of the financial statements.    �   Identify and evaluate the historical scripts (all
         Specifically:                                                      those implemented prior to those identified in
                                                                            recommendation 1 above) to determine the
           � Coast Guard lacks a formal process to distinguish              financial statement impact on cumulative
              between the module lead approvers for script approval         balances in permanent accounts; and develop
              requests;                                                     and maintain supporting procedures related to
           � The Procedures for Data Scripts do not specifically            each script.
              state the testing and documentation requirements for
              blanket approval scripts and this policy remains in       With respect to procedures already in place, Coast
              draft form;                                               Guard should:
           � Coast Guard does not monitor scripts run in the            � Continue to update script policies and
              database through audit logging and has not developed         procedures to include clear guidance over
              a technical solution to monitor who accesses the             module lead approvers, testing and
              database through                  to run scripts or          documentation requirements, monitoring/audit
                                                                           log reviews, and blanket approval


                                                                       19
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                      Appendix B

                                                 Department of Homeland Security

                                                    United States Coast Guard

                                             Information Technology Management Letter
                                                        September 30, 2008

                                                                                                                              New     Repeat    Risk
NFR #                            Condition                                            Recommendation
                                                                                                                              Issue    Issue   Rating*
             review what scripts are run;                                 requirements
           � The                            does not consistently     �  Finalize and implement policies and
             include all testing, approval, and implementation           procedures governing the script change control
             documentation for all scripts; and                          process including completing records within
           � Coast Guard has not completed          documentation        the                           for all executed
             for all scripts executed since their implementation.        scripts and ensuring that all scripts are tested
                                                                         in an appropriate test environment prior to
                                                                         being put into production.
                                                                      Regarding the actual scripts themselves, Coast
                                                                      Guard should:
                                                                      � Determine the root causes and specific
                                                                         detailed actions necessary to correct the
                                                                         conditions that resulted in scripts, for the total
                                                                         population of scripts run at            in order
                                                                         to develop system upgrades that would
                                                                         eliminate the use of some of the scripts.
                                                                      �   Continue efforts to complete an in-depth
                                                                          analysis of active scripts, with the following
                                                                          objectives:
                                                                           o All changes to active scripts and new
                                                                                scripts should be subject to an
                                                                                appropriate software change control
                                                                                process to include testing, reviews, and
                                                                                approvals.
                                                                           o All active scripts should be reviewed for
                                                                                impact on financial statement balances.
CG-IT­   Although Coast Guard                 has mandated the use    �   Finalize the procedure documentation and                      X      Medium
08-32    of                                       to maintain and         communicate/distribute the procedures
         track contracted personnel data, procedures surrounding


                                                                     20
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                         Appendix B

                                                  Department of Homeland Security

                                                     United States Coast Guard

                                              Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                 New     Repeat    Risk
NFR #                             Condition                                               Recommendation
                                                                                                                                 Issue    Issue   Rating*
         this process have not been formally documented. As a             �   Continuously monitor controls over          to
         result, we were unable to determine the effectiveness of the         verify that contractor data within the system
         controls in place for contractor tracking.                           remains current and accurate.
CG-IT­   Coast Guard does not consistently notify system owners           �   Implement an automated process/system that         X                Medium
08-33    that individuals are terminating from the Coast Guard so             will notify system owners of terminated
         that system accounts can be updated timely.                          contractor, military, and civilian personnel.
                                                                          �   Finalize and implement entity management
                                                                              policies and procedures for verifying that
                                                                              terminated user accounts have been
                                                                              successfully removed.
CG-IT­   All               are not being appropriately reviewed and       �   Reconfigure the        tool to not allow the       X                Medium
08-34    approved by management prior to                                      automatic approval of               upon
         development/deployment. In addition,            developers           creation.
         and testers are not updating information in the       tool in
         a timely manner.                                                 �   Enforce established change control policies
                                                                              and procedures by reviewing and approving:
                                                                              a) all software change requests prior to
                                                                              developing the changes; b) test results; and c)
                                                                              all test-developed changes prior to deploying
                                                                              the changes into the production environment.
                                                                          �   Ensure that the          development and test
                                                                              staff adheres to the policies and procedures for
                                                                              updating software change control information
                                                                              within the         tool.
CG-IT­   We noted that control weaknesses still exist within the          �            : Develop, implement, communicate,                  X       High
08-35    design of          ’s Configuration Management policies              and enforce procedures regarding how
         and procedures for       and      , as well as the                   changes are to be controlled, documented,
         operating effectiveness of those controls. Our test work             tracked, and reviewed as these changes
         over the design of the change controls covered both                  progress through testing and into production.
         periods of the change control environment; however, our


                                                                         21
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                         Appendix B

                                                  Department of Homeland Security

                                                     United States Coast Guard

                                              Information Technology Management Letter
                                                         September 30, 2008

                                                                                                                                 New     Repeat    Risk
NFR #                             Condition                                                Recommendation
                                                                                                                                 Issue    Issue   Rating*
         testing of operating effectiveness covered only the period        �   Coast Guard                Develop,
         of start of the fiscal year through March 2008, since no              implement, communicate, and enforce
         changes were made to           and     from April through             procedures regarding how change control
         the remainder of the fiscal year.                                     documentation will be maintained, reviewed,
                                                                               and validated in accordance with DHS
                                                                               Sensitive System Policy Directive 4300A.
CG-IT­   Configuration management weaknesses continue to exist on          �   Implement the corrective actions for the                    X      Medium
08-36    hosts supporting the                   applications and               recommendations listed within the NFR.
         the underlying                             .
                                                                           �   Continue to implement policies and
         Note: Due to the nature of this testing, see the tables in the        procedures to ensure that the tested and
         NFR for the specific conditions.                                      deployed software builds include required
                                                                               software patches and have current, correct,
                                                                               and compliant security configuration settings.

CG-IT­   Security patch management weaknesses continue to exist            �   Implement the corrective actions for the                    X      Medium
08-37    on hosts supporting the                    applications               recommendations listed within the NFR.
         and
                                                                           �   Continue to implement polices and procedures
         Note: Due to the nature of this testing, see the tables in the        to ensure that the tested and deployed software
         NFR for the specific conditions.                                      builds include required software patches and
                                                                               have current, correct, and compliant security
                                                                               configuration settings.
CG-IT­   Although Coast Guard                   is in the process of       �                                        X
                                                                               Perform initial background investigations   and                    Medium
08-40    completing background investigations for all civilian                 re-investigations for civilian employees in
         employees, this has not been completed. Additionally,                 accordance with position sensitivity
         Coast Guard has set its position sensitivity designations to          designations at no less than the Moderate level
         Low for the majority of its employees. However, DHS                   as required by DHS directives; and
         requires position sensitivity designations no less than
         Moderate which equates to a Minimum Background                    �   Conduct civilian background re-investigations
         Investigation (MBI). Therefore, we determined that the                every ten (10) years, as required by DHS
                                                                               directives, to ensure that each employee has a


                                                                          22
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B

                                                   Department of Homeland Security

                                                      United States Coast Guard

                                               Information Technology Management Letter
                                                          September 30, 2008

                                                                                                                                  New     Repeat    Risk
NFR #                              Condition                                                 Recommendation
                                                                                                                                  Issue    Issue   Rating*
         conditions noted in prior year NFR CG-IT-07-40 have not                 favorably adjudicated and valid MBI.
         been remediated.

CG-IT­              has not completed the risk assessment for the            Finalize and implement the Certification and                   X          Low
08-41                , and the                                   is still    Accreditation Package for the               in
         in draft form.                                                      accordance with DHS and NIST guidance.
CG-IT­   During prior financial statement audits dating back to FY           � Continue to implement, improve, and                          X       High
08-42    2003, we noted that implementation and oversight of the                 monitor compliance with DHS, Coast
         Coast Guard’s information security policy and procedures                Guard, and Federal security policies and
         was fragmented among the organizations responsible for                  procedures in the areas of:
         operating various applications/systems. In FY 2008,                     - Change Controls
         significant improvements have been made in some areas;              � Continue to improve and monitor
         however, improvements are still warranted at the Coast                  compliance with DHS, Coast Guard, and
         Guard data centers/locations that operate and process key               Federal security policies and procedures in
         Coast Guard financial information. Improvements are                     the areas of:
         needed especially in the areas of change control and to a               - Access Controls
         lesser extent, access to data and programs. These two key               - Entity-wide Security Planning
         areas were the subject of significant findings identified and           - Service Continuity
         recommendations that were made during the audit.                        - Segregation of Duties
                                                                                 - System Software
         As a result of our audit test work and supported by all the             - Application Controls
         IT NFRs issued during the current year, we determined that
                                                                             � Develop and implement corrective action
         Coast Guard is non-compliant with the Federal Financial
                                                                                 plans to address and remediate the NFRs
         Management Improvement Act.
                                                                                 issued during the FY 2008 audit. These
                                                                                 corrective action plans should be developed
                                                                                 from the perspective of the identified root
                                                                                 cause of the weakness. In addition, the IT
                                                                                 NFRs should not be assessed as individual
                                                                                 issues to fix, but instead, should be assessed
                                                                                 collectively based upon the area where the
                                                                                 weakness was identified. This approach


                                                                            23
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                                                                                          Appendix B

                                                      Department of Homeland Security

                                                         United States Coast Guard

                                                  Information Technology Management Letter
                                                             September 30, 2008

                                                                                                                                  New     Repeat    Risk
     NFR #                            Condition                                              Recommendation
                                                                                                                                  Issue    Issue   Rating*
                                                                                 would enable a corrective action that would
                                                                                 be more holistic in nature, thereby leading to
                                                                                 a more efficient and effective process of
                                                                                 fixing those controls which are not operating
                                                                                 effectively.
     CG-IT­   During our testwork over        and      access accounts,      �   Implement and document the                        X               Medium
     08-43    we noted that controls over user account authorizations and                              (      ) user access
              controls over user account reviews were not operating              review procedures to include all        access
              effectively.                                                       privileges and include supervisors in each
                                                                                 review.
                                                                             �   Update procedures to ensure that a
                                                                                 documented and approved access
                                                                                 authorization request is completed for each
                                                                                 individual prior to granting him/her access to
                                                                                 the      and        applications or databases.

* Risk ratings are only intended to assist management in prioritizing corrective actions. Risk ratings in this context do not correlate to
definitions of control deficiencies as identified by the AICPA.




                                                                            24
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS Financial Statement Audit
                                                                               Appendix C
                           Department of Homeland Security

                              United States Coast Guard

                       Information Technology Management Letter
                                  September 30, 2008




                                    Appendix C 


Status of Prior Year Notices of Findings and Recommendations And 

                          Comparison To 

       Current Year Notices of Findings and Recommendations 





                                           25
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                                                                                            Appendix C
                                   Department of Homeland Security
                                      United States Coast Guard
                               Information Technology Management Letter
                                          September 30, 2008




                                                                                                         Disposition
Component    NFR #                                 Description                                     Closed       Repeat

CG          07-01               has replaced the Disaster Recovery Business Continuity                          08-01
                      concept with the development of a Continuity of Operations Plan
                      (COOP) which addresses disaster recovery, business continuity and
                      continuity of government. However, the COOP is in draft form and
                      has not yet been tested and the Memorandum of Understanding with
                      the      for reciprocal services is still in draft form as well.

CG          07-02     The             change control policy does not detail requirements for         X
                      requesting, testing, and approving changes. Furthermore, there are
                      no formalized requirements pertaining to retention of supporting
                      documentation and the roles and responsibilities of
                      personnel in the process. Additionally, the policy does not
                      adequately reflect the            environment and change control
                      process that was utilized during the            upgrade performed
                      during FY07. Examples of inconsistencies include the references to
                      service packs, data fixes, and the testing procedures completed.

CG          07-03     The         system does not meet DHS password complexity                       X
                      requirements, and the        system is not scheduled for
                      decommissioning until December 2007.

CG          07-04     We identified the following account terminations weaknesses at                 X
                          :

                      � From October 1, 2006 through July 24, 2007,        had not yet
                        implemented policies and procedures for use in managing
                        terminations, including the use of the Outgoing Personnel Form.

                      � Outgoing Personnel Forms were not completed for one of five
                        individuals selected for testing.

                      � One terminated individual remained active within           until 90
                        days after his last logon before his account was revoked as part of
                        the          account review process.

                      � The account of a second terminated individual remains active
                        within the system, although it has been configured to automatically
                        log out the terminated individual if he attempts to login. Although
                        this is a low risk issue, the existence of this account still presents a



                                                            26
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                         Appendix C
                                   Department of Homeland Security
                                      United States Coast Guard
                               Information Technology Management Letter
                                          September 30, 2008

                                                                                                      Disposition
Component    NFR #                                 Description                                  Closed       Repeat

                        potential risk to the         data.

CG          07-05     Policies and procedures regarding requesting, authorizing, testing,         X
                      and approving operating system changes are not consistently
                      followed. Additionally, a testing baseline standard has not been
                      established to ensure that operating system changes have not
                      adversely affected portions of the system that were not intended to be
                      affected. Lastly,      was unable to reconcile changes to the
                      operating system to a listing of authorized operating system changes
                      to ensure that all changes have been appropriately approved.

CG          07-06     The contract Coast Guard                 has with the       and                        08-06
                      software vendor does not include security configuration requirements
                      that must be adhered to during the configuration management
                      process. Consequently,        and       builds and maintenance packs
                      may not be configured and implemented with comprehensive security
                      configuration requirements. CG recognizes the absence of security
                      requirements and indicated that the contract with the vendor will be
                      reassessed in 2008 during the contract renewal process with Coast
                      Guard                and corrective actions will be taken at that time.

CG          07-07          has not implemented the following password requirements:                          08-07

                      � Passwords shall contain special characters

                      � Passwords shall not contain any dictionary word

                      �	 Passwords shall not contain any proper noun or name of any
                        person, pet, child, or fictional character

                      �	 Passwords shall not contain any employee serial number, social
                        security number, birth date, phone number, or any information that
                        could be readily guessed about the creator of the password

                      �	 Passwords shall not contain any simple pattern of letters or
                        numbers, such as qwerty or xyz123

                      �	 Passwords shall not be any word, noun, or name spelled backwards
                        or appended with a single digit or with a two digit year string, such
                        as 98xyz123

                      � Passwords shall not be the same as the User ID



                                                          27
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                         Appendix C
                                   Department of Homeland Security
                                      United States Coast Guard
                               Information Technology Management Letter
                                          September 30, 2008

                                                                                                      Disposition
Component    NFR #                                Description                                   Closed       Repeat

CG          07-08     Two generic accounts have access to            and                .         X
                      Additionally, we determined that the                and
                                    settings were not enabled. Furthermore, four accounts
                      assigned to     personnel had both            and
                      two of which were system programmers.

CG          07-09     Every individual with access to the            data center has not          X
                      completed the required emergency response training. Additionally,
                      four employees were identified with 24 hour access to the data center
                      that had not completed the training as of July 2007. Lastly, the
                      security guards, with unrestricted access to the data center, have not
                      yet been required to complete the training.

CG          07-10     No formal procedures have been developed or implemented by Coast                       08-10
                      Guard                 to address DHS requirements surrounding the
                      suitability screening of contractors accessing DHS IT systems. DHS
                      directives and policies require Coast Guard and other DHS
                      components to ensure the completion of background investigations
                      for all contractors accessing IT systems. The type of background
                      investigation should be based on the risk level of the job position at
                      Coast Guard and should be completed prior to the start of work.
                      However, no Coast Guard guidance exists to require Coast Guard
                      components to clear their contractors for suitability, especially those
                      with sensitive IT positions.

CG          07-11 
   Session lockout times need to be changed from 40 to 20 minutes to           X
                      meet DHS requirements.

CG          07-12 
   The                        Disaster Recovery Plan has not been              X
                      tested, and we were unable to obtain a finalized Memorandum of
                      Understanding between        and Telecommunications and
                      Information Systems Command.

CG          07-13 
          is not consistently following the System Development Lifecycle       X
                      for all          application changes. For four system change
                      proposals and their associated sub-tasks, supporting documentation
                      (i.e., evidence of testing, peer reviewer, approvals, evidence of joint
                      application design meetings and business sponsor approvals) was not
                      available.

CG          07-14     Lack
 of criteria for defining personnel with significant IT                           08-14
                      responsibilities within the Coast Guard IT Security Awareness,
                      Training and Education Plan. Additionally, the personnel that are
                      defined in the guidance are very limited and do not fully cover the



                                                         28
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                         Appendix C
                                     Department of Homeland Security
                                        United States Coast Guard
                                 Information Technology Management Letter
                                            September 30, 2008

                                                                                                      Disposition
Component    NFR #                                   Description                                Closed       Repeat

                      scope of security responsibilities addressed in DHS requirements.

CG          07-15     The         application database (        ) is using       version                     08-15
                              , which is no longer supported by the vendor. Additionally,
                      an account on the        database has a password the same as
                      account name (              ). The database also has a directory
                      manipulation vulnerability in the binary file        .

CG          07-16           has developed and implemented policies and procedures that            X
                      address the review of inactive         accounts and lock those that
                      have been inactive for 90 days. However, DHS guidance requires
                      that inactive accounts be locked after 30 days.

CG          07-17                  access control weaknesses were noted:                                     08-17

                      � Passwords shall contain special characters

                      � Passwords shall not contain any dictionary word

                      �	 Passwords shall not contain any proper noun or name of any
                        person, pet, child, or fictional character

                      �	 Passwords shall not contain any employee serial number, social
                        security number, birth date, phone number, or any information that
                        could be readily guessed about the creator of the password

                      �	 Passwords shall not contain any simple pattern of letters or
                        numbers, such as qwerty or xyz123

                      �	 Passwords shall not be any word, noun, or name spelled backwards
                        or appended with a single digit or with a two digit year string, such
                        as 98xyz123

CG          07-18            access control weaknesses were noted:                                X

                       � Passwords shall contain special characters

                       � Passwords shall not contain any dictionary word

                       �	 Passwords shall not contain any proper noun or name of any
                            person, pet, child, or fictional character

                       � Passwords shall not contain any employee serial number, social


                                                            29
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                        Appendix C
                                     Department of Homeland Security
                                        United States Coast Guard
                                 Information Technology Management Letter
                                            September 30, 2008

                                                                                                     Disposition
Component    NFR #                                 Description                                 Closed       Repeat

                           security number, birth date, phone number, or any information
                           that could be readily guessed about the creator of the password

                       � Passwords shall not contain any simple pattern of letters or
                           numbers, such as qwerty or xyz123

                       � Passwords shall not be any word, noun, or name spelled
                           backwards or appended with a single digit or with a two digit
                           year string, such as 98xyz123

                       �        accounts of terminated individuals are not removed in a
                           timely manner, including one individual who had user account
                           management capabilities within the system. Additionally,
                           application and database accounts are not being reviewed for
                           appropriateness.

CG          07-19          access control weaknesses were noted:                                 X

                       �	 Documented access request forms could not be located for two
                           new       users granted access to the application.

                       �        accounts are not immediately disabled upon an employee’s
                           termination.

                       �	 Procedures have not been developed to require periodic account
                           reviews to be performed to ensure that all users and their
                           associated privileges are appropriate.

                       �         has not been configured to track and deactivate accounts
                           that have not been used in 30 days.

                       �	 An excessive number of individuals have user administrator
                           capabilities within    until the implementation of the
                           centralized user management (August 19, 2007).

                       �	 Password configuration is not in compliance with DHS guidance.

CG          07-20     The periodic review of                  accounts only covers 1% of all     X
                      user accounts with roles greater than              and that have been
                      modified within the last 90 days. The population that is validated
                      during this                        review was found to be insufficient
                      as the user population of the system is approximately 60,000 user




                                                          30
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                        Appendix C
                                   Department of Homeland Security
                                      United States Coast Guard
                               Information Technology Management Letter
                                          September 30, 2008

                                                                                                     Disposition
Component    NFR #                                Description                                  Closed       Repeat

                      accounts.

CG          07-21     The procedures for the periodic review of          user accounts does      X
                      not require a review of all active user accounts and privileges to be
                      performed and validated.

CG          07-22     Password configuration weaknesses associated with the                                 08-22
                      application. Also, the       application is configured to terminate
                      idle sessions after 30 minutes of inactivity instead of 20 minutes.

CG          07-23     While audit logging has been turned on for the        database,                       08-23
                      reviews of actions being taken on that database are still not being
                      performed.

CG          07-24     Policies and procedures regarding        data used for the Coast           X
                      Guard environmental liability report on the DHS Consolidated
                      balance sheet have been developed but are currently in draft form and
                      have not been implemented.

CG          07-25     The following access control weaknesses were identified within                        08-25
                            :

                       �	 Excessive access exists within the         database;

                       �	 Password configurations for the                       and
                                                 profiles have been configured to permit
                          passwords to be a minimum of six characters in length.
                          Additionally, the password history requirement is the only
                          password requirement that has been configured for the
                                        profile.

                       �	 Audit logging has not been enabled within the          application
                          or database.

                       �	 Documented access request forms could not be located for nine
                          out of 22 new         users granted access to the application.
                          Additionally, although the automated access request forms for
                          the other 13 out of 22 new        users granted access to the
                          application were approved, the level of access/privileges
                          associated with the new user were not documented on the access
                          request form.

                       �	 Individuals who are no longer employed with              were



                                                         31
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                          Appendix C
                                    Department of Homeland Security
                                       United States Coast Guard
                                Information Technology Management Letter
                                           September 30, 2008

                                                                                                       Disposition
Component    NFR #                                 Description                                   Closed       Repeat

                           found to have active accounts within        .

                       �            account reviews have not been performed on a periodic
                           basis.

CG          07-26          has been configured to automatically end date accounts that             X
                      have been inactive for six months. However, DHS requirements
                      require accounts to be disabled after 30 days of inactivity.

CG          07-27     Accounts within         that have been inactive for more than 90 days                   08-27
                      have not been disabled, access request authorization forms were
                      unavailable for 19 of the 30 individuals who had accounts created
                      during FY07, a recertification of       accounts is not performed,
                      and terminated employees are not deactivated in a timely manner.

CG          07-28     From the sample selected, a developer had elevated production                X
                      privileges in     . Also, two procedures/packages
                                                                 were added to
                                                               privileges.

CG          07-29     The individual who enters an applicant's data into the                 NFR transferred to Audit
                             also has the ability to hire the applicant in the system        Team. See Financial
                                                                                             NFR 08-32.
CG          07-30                 functional change control policies and procedures did not     X
                      reflect the change control process for the            changes and did
                      not adequately detail guidance for the change control process.
                      Specifically, the policy does not include requirements for requesting,
                      testing, and approving changes prior to implementing the functional
                      change into the             production environment.

CG          07-31     Coast Guard has only eliminated a small number of the scripts used                      08-31
                      on a consistent basis and is projecting that this approach will continue
                      into the delivery of          and beyond. Additionally, we noted that
                      as of April 27, 2007, 240 scripts were run during a week long period.
                      The number and type of scripts that are executed during any one
                      period in time varies from week to week depending on the issues
                      encountered. Of the 240 scripts noted during this particular week,
                      several were run numerous times for the same software gap.
                      Consequently,            has not fully integrated the two change
                      control processes or eliminated the need for the scripts.

CG          07-32     Coast Guard does not maintain a centralized listing of contracted                       08-32
                      personnel, including employment status, such as start date and




                                                          32
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                        Appendix C
                                   Department of Homeland Security
                                      United States Coast Guard
                               Information Technology Management Letter
                                          September 30, 2008

                                                                                                     Disposition
Component    NFR #                                Description                                  Closed       Repeat

                      termination date, so that system accounts can be timely updated.

CG          07-33     Coast Guard does not consistently notify system owners that                           08-33
                      individuals are terminating from the Coast Guard so that system
                      accounts can be updated timely.

CG          07-34               is not consistently implementing policies and procedures                    08-34
                      regarding the         change control process. Specifically, supporting
                      documentation is not maintained for all changes and emergency
                      changes. Additionally, changes may be approved prior to the change
                      being tested and passing the test.

CG          07-35     Policies and procedures for the overall change control process                        08-35
                      surrounding       and       changes and emergency changes are
                      inadequate. Specifically, the policies and procedures do not fully
                      include guidance for the roles and responsibilities          possesses
                      in the change control process. Additionally, they do not include
                      detailed requirements and guidance on requesting changes, initial
                      approvals,          testing, final approvals and documentation
                      retention requirements for changes made to the system.

CG          07-36     Configuration management weaknesses exist on hosts supporting the                     08-36
                          ,     , and     applications and     .

CG          07-37     Patch management weaknesses exist on hosts supporting the          ,                  08-37
                          , and     applications and     .

CG          07-38     Coast Guard’s                                                   )          X
                      program changes are implemented in production prior to approval
                      from the Financial Reports & Analysis Branch Chief or the Financial
                      Control & Information Division Chief as required by           policy
                      and procedures. Additionally, systems personnel move program
                      changes into production without signing off on the Request Change
                      to      Database form as required by the            procedures.

CG          07-39     Coast Guard has not completed the process of filing the background         X
                      investigation records that were recovered and recreating the records
                      that were not found during the migration of records from the
                      Department of Transportation to DHS.

CG          07-40     Civilian background investigations and reinvestigations are not being                 08-40
                      performed in accordance with DHS Minimum Background
                      Investigation standards per DHS Sensitive System Policy Directive




                                                        33
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                                                           Appendix C
                                   Department of Homeland Security
                                      United States Coast Guard
                               Information Technology Management Letter
                                          September 30, 2008

                                                                                                      Disposition
Component    NFR #                                 Description                                    Closed     Repeat

                      4300A.

CG          07-41     Per review of the         Certification and Accreditation (C&A)                         08-41
                      package, we noted that system boundary definitions do not fully
                      reflect the systems environment in which Coast Guard operates,
                      C&A does not reflect system changes made in the                 upgrade,
                      and              is classified by Coast Guard as a subsystem of        ,
                      however, there is no documentation within the
                                   that defines             as a subsystem and addresses the
                      appropriate security controls for              in this capacity according
                      to NIST requirements for subsystems

CG          07-42     Coast Guard is not compliant with the Federal Financial                                 08-42
                      Management Improvement Act from an information technology
                      perspective and in the following areas:

                      � Computer Security Act Requirements, including aspects of the
                          Federal Information Security Management Act

                      � System Documentation

                      � Internal Controls

                      � Training and User Support

                      � System Maintenance

                      � System Information Flow




                                                          34
     Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                                    Financial Statement Audit 

                                                                               Appendix D
                           Department of Homeland Security

                              United States Coast Guard

                       Information Technology Management Letter
                                  September 30, 2008




                                    Appendix D 



                            Management Comments 





                                           35
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS
                               Financial Statement Audit
                                                                                Appendix D
                            Department of Homeland Security
                               United States Coast Guard
                        Information Technology Management Letter
                                   September 30, 2008




                                           36
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                               Financial Statement Audit 

                                                                                Appendix D
                            Department of Homeland Security

                               United States Coast Guard

                        Information Technology Management Letter
                                   September 30, 2008


                  Report Distribution

                  Department of Homeland Security

                  Secretary
                  Acting Deputy Secretary
                  Chief of Staff for Operations
                  Chief of Staff for Policy
                  Acting General Counsel
                  Executive Secretariat
                  Under Secretary, Management
                  Acting Assistant Commissioner, USCG
                  DHS Chief Information Officer
                  DHS Chief Financial Officer
                  Chief Financial Officer, USCG
                  Chief Information Officer, USCG
                  DHS Chief Information Security Officer
                  Assistant Secretary for Policy
                  Assistant Secretary for Public Affairs
                  Assistant Secretary for Office of Legislative Affairs
                  DHS GAO OIG Audit Liaison
                  Chief Information Officer, Audit Liaison
                  USCG Audit Liaison

                  Office of Management and Budget

                  Chief, Homeland Security Branch
                  DHS OIG Budget Examiner

                  Congress

                  Congressional Oversight and Appropriations Committees as Appropriate




                                             37
Information Technology Management Letter for the Coast Guard Component of the FY 2008 DHS 

                               Financial Statement Audit 

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this report, please call the Office of Inspector General (OIG) at (202) 254-4199,
fax your request to (202) 254-4305, or visit the OIG web site at www.dhs.gov/oig.


OIG HOTLINE

To report alleged fraud, waste, abuse or mismanagement, or any other kind of criminal or noncriminal
misconduct relative to department programs or operations:

• Call our Hotline at 1-800-323-8603;

• Fax the complaint directly to us at (202) 254-4292;

• Email us at DHSOIGHOTLINE@dhs.gov; or

• Write to us at:
       DHS Office of Inspector General/MAIL STOP 2600,
       Attention: Office of Investigations - Hotline,
       245 Murray Drive, SW, Building 410,
       Washington, DC 20528.


The OIG seeks to protect the identity of each writer and caller.
